                                                                                                      Offce of Inspector General

                                                                                                     U.S. Department of Homeland Security
                                                                                                     Central Regional Offce
                                                                                                     Offce of Emergency Management
                                                                                                     Oversight
                                                                                                     7460 Warren Parkway, Suite 275
                                                                                                     Frisco, Texas 75034


                                                                                                     Homeland
                                                                                                     Security
                                                             March 24,2010


MEMORANDUM FOR:                                  Mark H. Landry, Interim Director,
                                                 FEMA Louisiana Transitional Recovery Office
                                                 '\-7 ~.\ j'/' ,
                                                  'l"bK~.:,. .' C\"''çYv.-c, ',L-
FROM:
                                    ~            Tond. Hadley, Director
                                                 Cent aFi:giona1 Offce

SUBJECT:                                         Town of Vinton, Louisiana
                                                 FEMA Disaster Number 1607-DR-LA
                                                 Public Assistance Identification Number 019-78820-00
                                                 Audit Report Number DD-1 0-06

We audited public assistance funds awarded to the Town of Vinton, Louisiana (Vinton). The
objective ofthe audit was to determine whether Vinton accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to federal regulations and
FEMA guidelines.

The Governor's Office of   Homeland Security and Emergency Preparedness (GOHSEP), a
FEMA grantee, awarded Vinton $5.24 milion for damages resulting from Hurrcane Rita, which
occurred on September 24, 2005. The award provided 100% funding for 10 large and 18 small
projects.
          i The audit covered the period September 24, 2005, through September 22, 2009,
during which Vinton claimed, and GOHSEP paid, $4.9 milion, We audited 15 projects totaling
$5.12 milion or 98% of  the total award (see Exhibit), FEMA did not complete an insurance
review and Vinton did not report all disaster damages. Therefore, our audit scope was limited
because we could not determine whether all damages resulting from the hurrcane were included
in Project Worksheets (PW) or whether all damages covered by insurance were reduced by
applicable insurance proceeds.

We conducted this performance audit under the authority ofthe Inspector General Act of 1978,
as amended, and according to generally accepted governent auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient and appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objective. We


1 Federal regulations in effect at the time of
                                                            the disaster set the large project threshold at $55,500.
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective except for the scope limitation discussed above.

We interviewed FEMA, GOHSEP, and Vinton officials; reviewedjudgmentally selected
transactions (generally based on dollar value) of claimed costs; and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of                         Vinton's
internal controls applicable to grant activities because it was not necessary to accomplish our
audit objective. We did, however, gain an understanding of 
                        Vinton's methods of accounting for
disaster-related costs and its procurement policies and procedures.


                                                 BACKGROUND

High winds from Hurrcane Rita resulted in fallen trees and downed utility poles and lines,
completely shutting down the town's electrical 
                power system. The hurrcane also caused roof
damage to the town's storage facility and sewage lift station pumps, and left substantial amounts
of  vegetative debris in Vinton's                drainage ditches and public roads. Vinton quickly moved to
restore power and clear debris by using its employees, private contractors, and the assistance of
other public agencies under mutual aid agreements.


                                             RESUL TS OF AUDIT

Vinton accounted for disaster costs on a project-by-project basis, as required. However, Vinton
did not always follow federal procurement standards for contracting; and its claim included
$402,872 of costs that were ineligible. Additionally, FEMA should deobligate $184,409
estimated for costs that Vinton did not incur or did not claim; and complete the review of
Vinton's insurance applicable to disaster damages.

Findine A: Contractine Procedures


Vinton claimed $3.9 milion for contracted services using seven contractors, properly awarding
and administering two ofthe largest contracts ($3.2 milion). However, Vinton did not properly
procure the services of the remaining five contractors according to federal regulations and
FEMA guidelines.

Federal procurement standards at 44 CFR 13.36 require, among other things:

          . Performance of procurement transactions in a manner providing full and open
              competition except under certain circumstances. One allowable circumstance is when
              there is a public exigency or emergency for the requirement that wil not permit a
              delay resulting from competitive solicitation. (13.36(c)(l) and (d)(4)(i))
          . Subgrantees shall not use time-and-material (T &M) contracts unless a determination

              is made that no other contract is suitable and provided that the contract includes a
              ceiling price that the contractor exceeds at its own risk. (13.36(b)(lO))



                                                            2

       . A cost or price analysis in connection with every procurement action, including

           contract modifications. 
   (13.36(f)(l))
       . Subgrantees' contracts must contain specific provisions listed in 44 CFR 13.36(i).

       . Obtain price or rate quotations from an adequate number of qualified sources for

          purchases under $100,000. (13.36(d)(l))

Vinton did not use full and open competition for a time-and-material (T &M) contract totaling
$319,977 for removing downed tree limbs from electric utility lines. Rather, Vinton used a
contract procured by another jurisdiction. Vinton did not determine whether any other type of
contract was suitable, did not perform the required price analysis, and the contract did not
contain a cost ceiling or contract provisions required by federal regulations. Vinton also
procured four contracts (totaling $26,773) under $100,000 without obtaining quotes. We did not
question the costs associated with the improper contacting because exigent circumstances
existed.

Findine: B: Mutual Aid Costs

Vinton claimed $279,018 for mutual aid costs to complete work that FEMA classified as
permanent work (Category F) under PW 244. These costs are ineligible under Category F.
FEMA Public Assistance Policy 9523.6, Mutual Aid Agreements for Public Assistance, section
7.E.1.b.(i) states, "Examples of mutual aid work that are not eligible include permanent recovery
work." Vinton used mutual aid agreements to restore power during the emergency period. If
FEMA had classified power restoration work as Category B emergency protective measures, the
$279,018 claimed for mutual aid costs would have been eligible. However, because FEMA
classified all ofthe work as permanent rather than emergency protective measures (Category B),
the costs were not eligible based on FEMA policy. FEMA can classify electrical work as either
permanent or emergency work. We recognize that the majority of electrical work is often
permanent. However, FEMA should classify the work to restore power to residential customers
and critical facilities as Category B, emergency protective measures, because this work may save
lives and property. Further, classifying power restoration work as emergency work clearly
delineates the period of time when exigent circumstances exist, which sometimes justify relaxed
procurement procedures, such as non-competitive contracts and time-and-material contracts.
When lives are at risk, there is often not enough time for full-and open competition or for
preparing a detailed scope of work necessary for lump sum or unit price contracts. We discussed
this finding with FEMA offcials, who agreed that reclassifying the PW as Category B, which
reflects the actual type of work completed, would make the claimed costs eligible. Therefore, we
recommended that FEMA reclassify PW 244 as Category B because it better reflects the type of
work performed.

Findine: C: Contract Prices

Vinton's claim included $119,934 of contract costs that were in excess of contract rates. As
stated in Finding A, Vinton used a T &M contract procured 
 by another jurisdiction to assist in
disaster recovery. The contractor biled Vinton $287,582 of   labor costs 
 using rates that exceeded
the contract rates. We recalculated labor charges using the hourly rates listed in the contract.




                                                       3
Based on contract rates, the labor costs biled should have been $167,648. Therefore, we
questioned $119,934, ($287,582 - $167,648) as improperly biled and ineligible.

Findine: D: Duplicate Costs

Vinton's claim included $3,920 of duplicate contract costs. Vinton included the cost in both
PWs 244 and 3179. Therefore, we questioned the $3,920 as a duplicate cost.

Other Matters:

PW Obligations

FEMA estimated and obligated disaster damage costs of $184,409 that Vinton did not incur or
did not claim. FEMA estimated costs of $182,400 for the demolition of privately owned
structures and homes under PW 1913. The US Army Corps of 
                                      Engineers completed the work
and Vinton did not claim costs for the demolition. Also, Vinton completed work under one PW
for $1,419        less than the estimated costs. In addition, Vinton's claim included $590 of 
                      math
errors that GOHSEP identified and deducted from the claim. Therefore, we recommended
FEMA deobligate $184,409 for costs Vinton did not incur or did not claim.

Costs Covered bv Insurance

We could not determine whether Vinton's claim included duplicate costs covered by insurance
because FEMA did not complete an insurance review to determine how insurance proceeds
should be applied to eligible damages, and Vinton did not submit all damages related to the
hurricane. Therefore, we could not determine whether Vinton received duplicate benefits as a
result of 
 insurance coverage. Federal regulations prohibit the use ofFEMA public assistance
funds for damages covered by insurance (44 CFR 206.253). Therefore, we recommended that
FEMA complete the insurance review to determine whether Vinton received duplicate benefits.


                                              RECOMMENDATIONS

We recommend that the Interim Director, Louisiana Transitional Recovery Office:

 1. Reclassify Project Worksheet 244 from permanent work (Category F) to emergency
     protective measures (Category B).
 2. Disallow $119,934 of excess contract prices.
 3. Disallow $3,920 of duplicate costs.
 4. Deobligate$184,409 of disaster damage costs not incurred or claimed.
 5. Complete the insurance review to determine whether Vinton received duplicate benefits.




                                                               4

                   DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP


We discussed the results of our audit with FEMA officials on February 18, 2010, and with the
Town of 
 Vinton and GOHSEP offcials on February 26,2010. FEMA officials agreed with our
findings and recommendations. Please advise this offce by May 25,2010, of        the actions
planned or taken to implement the recommendations, including target completion dates for any
planned actions. Significant contributors to this report were Paige Hamrick, James Mitchell, and
Rebecca Hetzler. Should you have questions concerning this report, please contact me or Paige
Hamrick, Audit Manager, at (214) 436-5200.

cc: Regional Administrator, FEMA Region VI

            Audit Liaison, FEMA Region VI

            Audit Liaison, FEMA Louisiana Transitional Recovery Offce

            Audit Liaison, FEMA (Job Code DG09C12)





                                                                            5

                                                                          EXHIBIT


                       Schedule of Audited Projects
                        Town of 
 Vinton, Louisiana
                 FEMA Disaster Number 1607-DR..:LA


Project    PW                                        Total CostsCosts to be
Number    Amount       Findine: C     Findine: D     Questioned Deoblie:ated
  155     $   18,332    $        0        $     0      $        0    $        0
  168         11,083             0              0               0             0
  244        380,061             0          3,920            3,920            0
  280          5,000             0              0                0            0
  394         10,417             0              0                0            0
  561         51,023             0              0                0            0
 564         319,976        119,934             0          119,934            0
 1409        218,673              0             0                0            0
 1759         60,425              0             0                0            0
 1790        395,000              0             0                0            0
 1906      3,167,733              0             0                0            0
 1913        182,400              0             0                0       182,400
 3129        110,826              0             0                0             0
 3179        130,855              0             0                0         2,009
 3181         60,588              0             0                0             0

 Totals   $5.122.392    $119.934            $3.920      $123.854     $184.409




                                       6

